<html>
<title> - TECHNOLOGY FOR PATIENT SAFETY AT VETERANS HOSPITALS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     TECHNOLOGY FOR PATIENT SAFETY
                         AT VETERANS HOSPITALS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY &
                       SUBCOMMITTEE ON OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2014

                               __________

                           Serial No. 113-83

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       
                                       ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

89-412 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
KEVIN CRAMER, North Dakota           EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas



















                            C O N T E N T S

                             June 26, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................     9

Statement by Representative Paul Broun, Chairman, Subcommittee on 
  Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    11
    Written Statement............................................    13

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

                               Witnesses:

Dr. Chetan Jinadatha, Chief, Infectious Diseases, Central Texas 
  Veterans Health Care System
    Oral Statement...............................................    17
    Submitted Biography..........................................    19

Dr. Elaine Cox, Professor of Clinical Pediatrics, Director of 
  Infection Prevention, Director of Pediatric Antimicrobial 
  Stewardship, Riley Hospital for Children
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Trish M. Perl, Professor of Medicine and Pathology, Johns 
  Hopkins School of Medicine; Professor of Epidemiology, 
  Bloomberg School of Public Health; Senior Epidemiologist, Johns 
  Hopkins Medicine
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. Jeff Smith, President, Electro-spec, Inc.
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Morris Miller, Chief Executive Officer, Xenex Disinfection 
  Services
    Oral Statement...............................................    54
    Written Statement............................................    56

Discussion.......................................................   100

             Appendix I: Answers to Post-Hearing Questions

Dr. Chetan Jinadatha, Chief, Infectious Diseases, Central Texas 
  Veterans Health Care System....................................    82

Dr. Elaine Cox , Professor of Clinical Pediatrics, Director of 
  Infection Prevention, Director of Pediatric Antimicrobial 
  Stewardship, Riley Hospital for Children.......................    98

Dr. Trish M . Perl, Professor of Medicine and Pathology, Johns 
  Hopkins School of Medicine; Professor of Epidemiology, 
  Bloomberg School of Public Health; Senior Epidemiologist, Johns 
  Hopkins Medicine...............................................   105

Mr. Jeff Smith, President, Electro-spec, Inc.....................   110

Mr. Morris Miller, Chief Executive Officer, Xenex Disinfection 
  Services.......................................................   119

            Appendix II: Additional Material for the Record

Prepared statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   128

Articles submitted by Subcommittee Representative Larry Bucshon, 
  Chairman, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   130

Supporting documents submitted by Dr. Trish M . Perl, Professor 
  of Medicine and Pathology, Johns Hopkins School of Medicine; 
  Professor of Epidemiology, Bloomberg School of Public Health; 
  Senior Epidemiologist, Johns Hopkins Medicine..................   150

 
          TECHNOLOGY FOR PATIENT SAFETY AT VETERANS HOSPITALS

                              ----------                              


                        THURSDAY, JUNE 26, 2014

                  House of Representatives,
       Subcommittee on Research and Technology and 
                         Subcommittee on Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 9:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee on Research and 
Technology] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. The joint hearing of the Subcommittee on 
Research and Technology and the Subcommittee on Oversight will 
come to order.
    Good morning, everyone, and welcome to today's hearing 
titled ``Technology for Patient Safety at Veterans Hospitals.''
    In front of you are packets containing the written 
testimony, biographies and Truth in Testimony disclosures for 
today's witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer period will be handled. We will recognize 
those Members present at the gavel in order of seniority on the 
full Committee and those coming after the gavel will be 
recognized in order of arrival. I now recognize myself for five 
minutes for an opening statement.
    This morning's hearing will focus on an important public 
health issue: the problem of patients contracting dangerous 
infections while in the hospital. This problem has been in the 
news lately due to disclosure of unfavorable information about 
some Veterans Administration hospitals, including high rates of 
hospital-acquired infections, or HAIs.
    We want the highest quality of care and the highest 
standards of patient safety in all VA hospitals. Big variations 
among VA hospitals are a cause for concern.
    However, as a former cardiothoracic surgeon, I am well 
aware that HAIs are not a problem unique to the VA Health Care 
System. Also, it is important to realize that hospital-acquired 
infection rates will never be zero, but can and should be 
aggressively minimized.
    Rates of hospital-acquired infections appear to have 
declined in recent years. During the 1990s, estimates hovered 
around 2 million per year. The CDC's most recent estimate is 
1.7 million hospital-acquired infections happen annually. The 
CDC also calculates this works out to about a one in 25 chance 
of contracting a serious infection while in the hospital.
    The idea a hospital patient, on average, only has a one in 
25 chance of getting an infection is certainly not a good 
thing. Many infections that patients suffer from while 
hospitalized originate from their own flora--their own 
bacteria, for non-medical people--i.e., the skin, respiratory, 
or intestinal bacteria for example, that comes to the hospital 
with the patient.
    That said, research has shown it is possible to prevent a 
large fraction of hospital acquired infections. For example, 
simple things like isolating patients who have serious 
infections, and doctors and nurses washing their hands between 
each patient, can go a long way toward controlling the spread 
of potentially lethal infections. One hundred percent adherence 
to all these best practices by health care personnel won't 
solve the problem. Hand washing and hand sanitation is just as 
important for family members and other hospital visitors, too, 
as they often are unknowingly responsible for spreading 
bacteria and viruses. Some types of viruses, for example, can 
survive for months on a tray, a door frame or other surface.
    Most people take for granted that antibiotics can 
ultimately cure all but the most exotic types of infections. 
Until a few decades ago, antibiotics were, for the most part, 
an effective backstop against most hospital-acquired 
infections. The evolution of antibiotic-resistant superbugs is 
voiding the assumption that medicine can cure every infection. 
More than one dozen types of pathogens have developed 
resistance to most types of antibiotics. In some cases, just 
one class of antibiotics is still effective, and in a few 
instances, there are literally no antibiotics that are 
effective against certain bacteria. Antibiotic overuse and 
inappropriate use are significantly responsible for the growing 
number of antibiotic resistant superbugs.
    As a personal side note, I believe tort issues surrounding 
the practice of medicine is partly responsible for this issue 
and needs reform. Another problem is the slow pace at which new 
antibiotics are being developed, due to the costly and lengthy 
approval process.
    According to the Infectious Disease Society of America, 
just one organism, methicillin-resistant Staph aureus, better 
known as MRSA, kills more Americans each year than the combined 
total of emphysema, HIV/AIDS, Parkinson's disease, and 
homicide.
    The Food and Drug Administration recently approved a new 
antibiotic for MRSA infections, but that is just one type of 
bacteria, and the odds are that resistance to the new medicine 
will develop.
    The better news is that there are some promising new, non-
pharmaceutical innovations that can help to reduce hospital-
acquired infection rates significantly, innovations that don't 
seem to carry the possibility of eventual antibiotic 
resistance. These innovations have been developed from research 
in several scientific fields, including nanotechnology, 
robotics, computer science, and biology.
    We are fortunate to have with us three physicians who are 
national experts in infectious diseases and the prevention of 
hospital-acquired infections and two witnesses will describe 
the anti-infection innovations their companies have brought 
forward. I look forward to this morning's testimony on this 
important subject.
    [The prepared statement of Mr. Bucshon follows:]

   Prepared Statement of the Subcommittee on Research and Technology
                         Chairman Larry Bucshon

    This morning's hearing will focus on an important public health 
issue--the problem of patients contracting dangerous infections while 
in the hospital. This problem has been in the news lately due to 
disclosure of unfavorable information about some Veterans 
Administration hospitals, including high rates of hospital acquired 
infections, or HAI's.
    We want the highest quality of care and highest standards of 
patient safety in all VA hospitals. Big variations among VA hospitals 
are a cause for concern. However, as a former cardio-thoracic surgeon, 
I am well aware that HAIs are not a problem unique to the VA Health 
Care System. Also, it is important to realize that HAI rates will never 
be zero, but can and should be aggressively minimized.
    Rates of hospital-acquired infections appear to have declined in 
recent years. During the 1990's, estimates hovered around 2 million per 
year. The CDC's most recent estimate is 1.7 million HAIs annually. The 
CDC also calculates this works out to about a one in 25 chance of 
contracting a seriousinfection while in a hospital.
    The idea a hospital patient, on average, has ``only'' a one in 25 
chance of getting an infection is certainly not a good thing. Many 
infections that patients suffer from while hospitalized originate from 
their own flora (ie skin, respiratory, or intestinal bacteria for 
example.)
    That said, research has shown it is possible to prevent a large 
fraction of hospital infections. For example, simple things like 
isolating patients who have serious infections, and doctors and nurses 
washing their hands between each patient, can go a long way toward 
controlling the spread ofpotentially lethal infections.
    One hundred percent adherence to all best practices by health care 
personnel won't solve the problem. Hand washing and hand sanitation is 
just as important for family members and other hospital visitors, too, 
as they often are unknowingly responsible for spreading bacteria and 
viruses. Some types of viruses can survive for six months on a tray, a 
door frame or other type of surface.
    Most people take for granted that antibiotics can ultimately cure 
all but the most exotic kinds of infections. Until a few decades ago, 
antibiotics were an effective backstop against most hospitalacquired 
infections.
    The evolution of antibiotic-resistant superbugs is voiding the 
assumption that medicine can cure infections. More than one dozen types 
of pathogens have developed resistance to most types of antibiotics. In 
some cases, just one class of antibiotics is still effective. And in a 
few instances, there is literally no antibiotic that works. Antibiotic 
overuse and inappropriate use are significantly responsible for the 
growing number of antibiotic resistant superbugs. As a personal side 
note, I believe tort issues surrounding the practice of medicine is 
partly responsible for this issue and needs reform. Another problem is 
the slow pace at which new antibiotics are being developed, due to a 
costly and lengthy approval process.
    According to the Infectious Disease Society of America (IDSA), just 
one organism--methicillin-resistant Staphylococcus aureus, better known 
as MRSA--kills more Americans each year than the combined total of 
emphysema, HIV/AIDS, Parkinson's disease, and homicide.
    The Food and Drug Administration recently approved a new antibiotic 
for MRSA infections. But that's just one type of bacteria, and the odds 
are that resistance to the new medicine will develop.
    The better news is that there are some promising new, non-
pharmaceutical innovations that can help to reduce HAI rates 
significantly, innovations that don't seem to carry the possibility of 
eventual antibiotic resistance.
    These innovations have been developed from research in several 
scientific fields, including nanotechnology, robotics, computer 
science, and biology.
    We're fortunate to have with us three physicians who are national 
experts in infectious diseases and the prevention of HAIs and two 
witnesses will describe the anti-infection innovations their companies 
have brought forward. I look forward to this morning's testimony on 
this important subject.

    Chairman Bucshon. I now yield to the Ranking Member, Mr. 
Maffei.
    Mr. Maffei. Thank you very much, Chairman Bucshon. I also 
want to thank you for holding this hearing and I also want to 
thank Chairman Broun, who is the Chairman of my Subcommittee, 
the Subcommittee on Oversight, and I of course want to thank 
Chairman Smith, the Chairman of the full Committee, and all the 
Members for being here. This is an important hearing on the 
technology for patient safety at Veterans Hospitals.
    Health care-associated infections are a serious and 
potentially deadly threat to anyone who spends time in a 
hospital, any hospital. In fact, overall, not just the VA but 
all hospitals, there is an average of 200 individuals who die 
every day as a result of health care-associated infections. 
This amounts to an estimated 75,000 people a year. Another 
650,000 patients become infected each year during their 
hospital stays, and it can cost as much as $45,000 per patient 
to treat these infections. Health care-associated infections in 
the United States alone cost as much as $45 billion a year.
    I would stress that these infections are not unique to the 
Veterans Administration's hospitals. I know that health care-
associated infections and medical mishaps do not stop at the 
door of the VA, however. Unfortunately, they are prevalent in 
all health care facilities, and the tools to combat these 
infections and to prevent medical errors are the same 
regardless of where the care is given.
    I look forward to hearing from our witnesses today about 
both proven methods and new technologies that can help play a 
role in addressing this serious issue. I am particularly 
interested in hearing from Dr. Trish Perl from Johns Hopkins 
University, who brings a wealth of experience and expertise to 
the area of infectious diseases and the role that technology 
can play in their prevention. She has firsthand experience 
implementing new technologies to combat hospital infections, 
some that worked successfully and some that actually increased 
the rate of infection. I look forward to hearing from her about 
the possible benefits and potential downsides to implementing 
unproven technologies in the hospital settings.
    Mr. Chairman, I must confess, though, I do have concerns 
about the testimony of one of our witnesses, however, and that 
is simply that it wasn't submitted at all in a clear 
contradiction of this Committee's rules and practices. It is 
the standard practice of the House Committee on Science, Space, 
and Technology to have advanced written testimony from 
witnesses before they testify. Today, the Majority has taken 
the opposite approach and is willing to sit a witness from the 
Veterans Administration that has provided no written testimony 
in advance of this hearing. I am concerned that Majority staff 
knew about this problem and did not rectify it in a timely 
manner and agreed to sit this witness without having written 
testimony prior to the hearing several days ago rather than 
postponing the hearing or moving forward without this witness.
    My understanding is that the failure to have testimony is 
not the failure of the witness, Dr. Jinadatha, so I apologize 
to you. I am sorry you are caught in the middle of this. I know 
that you have provided--you prepared your testimony and it was 
an approval process that was the issue, but still, I did want 
to voice these concerns because I do think it is very, very 
important that we don't set a precedent in this Committee that 
we do not want to set, that we will have--particularly with the 
Oversight Subcommittee, that we will have witnesses testifying 
without having submitted in advance for everybody on the 
Committee to look at, peruse, develop questions on written 
testimony.
    So with those concerns stated, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Maffei follows:]

   Prepared Statement of the Subcommittee on Research and Technology
                   Ranking Minority Member Dan Maffei

    Chairman Bucshon, Chairman Broun thank you both for holding this 
important hearing today on ``Technology for Patient Safety at Veterans 
Hospitals.''
    The recent disclosures of mismanagement at the VA are deeply 
troubling. I represent nearly 50,000 veterans in Central New York and I 
want to ensure they receive the best care possible. Last month, as a 
result of these revelations about the VA, I personally called for the 
Secretary of the VA, Eric Shinseki to step down so that the VA could 
move forward with new management.
    But nothing about the substance of this hearing, focused on the 
threat of Healthcare Associated Infections (HAIs) and potential methods 
to successfully address them, is isolated to the VA.
    Healthcare Associated Infections are a serious and potentially 
deadly threat to anyone who spends time in a hospital--any hospital. By 
this time tomorrow 200 individuals at U.S. hospitals will have died as 
a result of healthcare associated infections. This amounts to an 
estimated 75,000 people per year. Another 650,000 patients become 
infected each year during their hospital stay.
    It can cost as much as $45,000 per patient to treat these 
infections. Healthcare Associated Infections in the U.S. alone cost as 
much as $45 billion per year.
    I would stress that these infections are not unique to Veterans 
Administration (VA) hospitals. My home District in Syracuse, New York 
includes one VA hospital and six public and private hospitals. I know 
that Healthcare Associated Infections and medical mishaps do not stop 
at the door of the VA. Unfortunately, they are prevalent in all 
healthcare facilities. And the tools to combat these infections and to 
help prevent medical errors are the same regardless of where the care 
is given.
    The good news is that a recent report released by the Centers for 
Disease Control and Prevention (CDC) shows steady progress at the 
national level against Healthcare-Associated Infections. The report 
found a 44 percent decrease in central line-associated bloodstream 
infections between 2008 and 2012; a 20 percent decrease in infections 
related to 10 major surgical procedures between 2008 and 2012; and a 4 
percent decrease in hospital-onset MRSA (Methicillin-resistant 
Staphylococcus aureus) bloodstream infections between 2011 and 2012.
    But combatting healthcare associated infections is still difficult, 
often deadly and very costly.
    Technologies can help, but I doubt there is a single silver bullet 
available in this fight to eradicate these troubling and pervasive 
infections. Simple steps like proper hand-hygiene, appropriate training 
and clear communication can also have a major impact on the spread of 
these healthcare associated infections.
    I am looking forward to hearing from our witnesses today about both 
proven methods and new technologies that can help play a role in 
addressing this serious issue. I am particularly interested in hearing 
from Dr. Trish Perl from Johns Hopkins University, who brings a wealth 
of experience and expertise in the area of infectious diseases and the 
role that technology can play in their prevention. She has first-hand 
experience implementing new technologies to combat hospital infections, 
some that worked successfully and some that actually increased the rate 
of infection. I look forward to hearing from her about the possible 
benefits and potential downsides to implementing unproven technologies 
in the hospital setting.

    Chairman Bucshon. Thank you. I would also like to comment 
on that. Rule 3, Section C says insofar as is practical, no 
later than 48 hours in advance of his or her appearance, each 
witness who is to appear before the Committee or any 
Subcommittee shall file a printed copy in electronic form or 
written statement of his or her proposed testimony and a 
curriculum vitae. In this situation, we had some difficulty 
with the process through the VA getting the written testimony 
final approval and we felt that the testimony of this witness 
was very valuable and it was not practical to get the testimony 
in in time. The delay was unexpected due to the process needing 
approval and therefore I feel that the witness's testimony is 
valuable and in no way would prejudice the discussion at this 
hearing and therefore should be allowed.
    Mr. Maffei. Would the Chairman yield?
    Chairman Bucshon. I will yield.
    Mr. Maffei. Mr. Chairman, I appreciate those comments, and 
I certainly--that is why I would not object to Mr. Jinadatha 
being a witness here because I do believe that he has a lot of 
important things to say, but my understanding is that the 
Majority staff did know about this in enough advance notice to 
have done something about it. So while I appreciate that at 
this point of course it couldn't be avoided, there was a point 
where it could have been, and that is my concern.
    The Chairman of my Subcommittee, Mr. Broun, has pressured 
the Administration many times about the----
    Chairman Bucshon. I take back my time. Thanks for that 
opinion. I appreciate it. We don't like the situation either 
but again, feel that the testimony of the witness is very 
valuable to the context of this hearing, and at this point we 
will proceed ahead with the hearing.
    Chairman Smith of Texas. Mr. Chairman, could I just add a 
comment here?
    Chairman Bucshon. I yield to the Chairman of the full 
Committee, Mr. Smith.
    Chairman Smith of Texas. Thank you. I do want to reassure 
the Ranking Member, Mr. Maffei, that we actually did try to get 
the written testimony and we share his sentiments completely. I 
am as frustrated as anyone else, and I have been frustrated 
both in this Committee and other Committees when we have had 
witnesses who because of various governmental rules have not 
been able to give us the written testimony that we all would 
like to see ahead of time. So I think we made a good-faith 
effort to try to get it over the last several days.
    I also want to say to the Ranking Member, I very much 
appreciate his measured remarks, measured comments, and because 
they were measured, they even have a greater impact than he 
might think, and we will try to make sure that, as he 
suggested, this is very much the exception to the rule and not 
the rule.
    Mr. Maffei. Would the Chairman yield just so I can thank 
the gentleman?
    Chairman Bucshon. I will yield.
    Mr. Maffei. I do want to thank the Chairman of the full 
Committee and of course, you, Mr. Chairman, for hearing me out 
on this, and I will just stick with, I just don't want this to 
be the precedent of the Committee. But thank you very much for 
hearing us out.
    Mr. Broun. Mr. Chairman?
    Chairman Bucshon. Mr. Broun, I yield.
    Mr. Broun. Thank you, Mr. Chairman.
    I just want to remark to my dear friend, good friend, my 
coworker on our Oversight Committee, that as he stated in his 
remarks, it has been something I have been very concerned about 
and I am extremely concerned just like my friend, Mr. Maffei, 
is about this very issue, and I would be objecting tremendously 
except for I think this is an extremely important witness that 
can give us some insight into the VA, and his testimony has 
been approved by the VA, from my understanding. It is just some 
other parts of the Administration that have delayed or dragged 
their feet, and let me assure my friend, Mr. Maffei, that the 
staff on this side have been very, very diligent in trying to 
get this written testimony approved.
    His oral testimony--in his oral testimony, he can read his 
written testimony, and that is okay with the VA. And so what we 
are trying to do is prevent deaths, and I think this is an 
emergent situation or I would be objecting very vehemently 
myself, I assure you, and I don't want this to be a precedent 
any more than my friend wants it be a precedent. We must have 
written testimony, but in this case, because of life-
threatening situations, I think it is prudent for us to go 
ahead and hear from the witness, and I appreciate my friend's 
comments and I agree with wholeheartedly and I appreciate us 
being able to go forward, and I thank you very much. At this 
point I will yield back.
    Chairman Bucshon. I will reclaim my time and then with 
that, I will now recognize the Chairman of the Subcommittee on 
Oversight, the gentleman from Georgia, Mr. Broun, for his 
opening statement.
    Mr. Broun. Thank you, Dr. Bucshon. I thank all the 
witnesses for being here today and going through this little 
necessary dialogue between us, and I look forward to hearing 
from you all today. For those of you all who are not from the 
South ``you all'' is singular and plural, so I appreciate all 
of you all being here.
    As both a medical doctor as well as a U.S. Marine, it is 
deeply troubling to me to hear reports of poor care given to 
veterans in my home State of Georgia as well as across this 
country. In January of this year, I returned to Augusta for an 
oversight visit to the Charlie Norwood VA Medical Center with 
some of my colleagues. During the trip, I was extremely 
saddened to see the cavalier attitude expressed by the VA, and 
the potential implication for hospital-associated infections, 
or HAIs, and preventable deaths. A recent Wall Street Journal 
article on VA hospitals cited specifically that, ``at Augusta, 
the in-hospital death rate was 120 percent above that of the 
best facilities.'' This kind of negligence is intolerable and I 
won't stand for it.
    The principal function of our federal government under the 
Constitution is to provide for our national defense, and it is 
imperative that we take care of the men and women who so 
bravely served our country with dignity and pride. We made 
promises to veterans, and we must fulfill those promises for 
those who have sacrificed for all us to keep us free as a 
nation. Our veterans should receive the best care available 
anywhere in the country, and there is no question about that.
    The Centers for Disease Control and Prevention states that 
``approximately 1.7 million HAIs occur in United States 
hospitals each year, resulting in up to 99,000 deaths and an 
estimated $20 billion in healthcare costs.'' Contributing to 
these numbers is a wide variation in medical care at VA 
hospitals with substantially more HAIs and preventable deaths 
at certain VA hospitals. However, since the VA does not 
publicly disclose comprehensive details on each of their 
facilities, it is hard for veterans and their families to 
receive fair warning that they are walking into a potentially 
life-threatening situation when they are requesting medical 
care from those VA facilities.
    What is additionally astounding is that the infection rates 
at some VA hospitals exceed the rates at private sector 
hospitals by ten times or more. On top of that, the Wall Street 
Journal article I mentioned earlier notes that, ``VA senior 
management suspended a long-standing program that had sent 
teams of doctors and monitors to its worst-performing hospitals 
to try to improve them.'' As the Chairman of the Oversight 
Subcommittee, I consider this lack of oversight, 
accountability, and due diligence to be totally inexcusable and 
intolerable.
    The treatment of veterans is not only a moral issue, but a 
national security issue as well. If the federal government 
fails to fulfill the promises it has made to our veterans, how 
are we going to recruit the finest men and women to come into 
the military and stay to be senior NCOs, senior officers, or 
flag officers? It just will not happen.
    I look forward to hearing from our witnesses about 
technologies that can save veterans from preventable infections 
and deaths. I also encourage everyone at the VA listening to 
this hearing today to renew their commitment to our veterans by 
doing everything in their power and as soon as possible to 
ensure that our Nation's heroes are given the care that they 
deserve and have earned.
    I thank you, Chairman Bucshon, Dr. Bucshon, my good friend 
and medical colleague, for holding this very important hearing, 
and I yield back the balance of my time.
    [The prepared statement of Mr. Broun follows:]

          Prepared Statement of the Subcommittee on Oversight
                          Chairman Paul Broun

    Thank you, Chairman Bucshon, and thank you to all of our witnesses 
for being here today. I am looking forward to hearing from you all on 
this very important matter.
    As both a medical doctor and a U.S. Marine, it is deeply troubling 
to hear reports of poor care given to veterans in my home state of 
Georgia as well as across this country. In January, I returned to 
Augusta for an oversight visit of the Charlie Norwood VA Medical Center 
with some of my colleagues. During the trip, I was extremely saddened 
to see the cavalier attitude expressed by the VA, and the potential 
implication for hospital-associated-infections--or HAIs--and 
preventable deaths. A recent Wall Street Journal article on VA 
hospitals cited specifically that, ``at Augusta, the in-hospital death 
rate was 120% above that of the best facilities.'' This kind of 
negligence is intolerable.
    The principle function of our federal government under the 
Constitution is to provide for our national defense and take care of 
the men and women who have so bravely served our country with dignity 
and pride. We have made promises, and we must fulfill those promises 
for those who have sacrificed for us. Our veterans should receive the 
best care--there is no question about it.
    The Centers for Disease Control and Prevention states that 
``approximately 1.7 million HAIs occur in U.S. hospitals each year, 
resulting in up to 99,000 deaths and an estimated $20 billion in 
healthcare costs.'' Contributing to these numbers is the wide variation 
in medical care at VA hospitals with substantially more HAIs and 
preventable deaths at certain VA hospitals. However, since the VA does 
not publicly disclose comprehensive details on each of their 
facilities, it is hard for veterans to receive fair warning that they 
are walking into a potentially life-threatening situation when 
requesting medical care. What is additionally astounding is that the 
infection rates at some VA hospitals exceed the rates at private sector 
hospitals by ten times or more.
    On top of that, the Wall Street Journal article I mentioned earlier 
notes that, ``VA senior management suspended a long-standing program 
that had sent teams of doctors and monitors to its worst-performing 
hospitals to try to improve them.'' As the Chairman of the Oversight 
Subcommittee, I consider this lack of oversight, accountability, and 
due-diligence to be inexcusable.
    The treatment of veterans is not only a moral issue, but a national 
security issue as well. If the federal government fails to fulfill the 
promises it has made to our veterans, how are we going to recruit the 
finest men and women to come into the military and stay to be senior 
NCOs, senior officers, or flag officers? It won't happen!
    I look forward to hearing from our witnesses about technologies 
that can save veterans from preventable infections and deaths. I also 
encourage everyone at the VA listening to this hearing today to renew 
their commitment to our veterans by doing everything in their power, as 
soon as possible, to ensure our nation's heroes are given the care that 
they deserve and have earned.
    Thank you again Chairman Bucshon for holding this very important 
hearing, and I yield back the balance of my time.

    Chairman Bucshon. Thank you, Dr. Broun. I now recognize the 
Chairman of the full Committee, Mr. Smith, for an opening 
statement.
    Chairman Smith of Texas. Thank you, Mr. Chairman.
    The long delays and unacceptable quality of VA health care 
for tens of thousands of our veterans has recently become 
public. Following up on a series of letters to the VA Inspector 
General and others, I recently met with Acting VA Secretary 
Gibson at the Audie Murphy Memorial Hospital in my district in 
San Antonio. I was reassured that he sincerely wants to fix the 
problems facing our veterans but we need swift action and 
strong resolve to fix such a broken system at the VA.
    Veterans who live in the 21st Congressional District of 
Texas and across our country should have the best health care 
America can provide. American veterans have made tremendous 
sacrifices to protect and defend our freedoms. They deserve the 
best health care possible, as soon as possible.
    Today's hearing will enable us to understand more about 
patient safety and how scientific research and new technology 
can boost efforts to prevent patients from contracting serious 
infections while they are hospitalized.
    A number of VA hospitals are among the worst in the United 
States in terms of inflicting preventable infections on their 
patients. Hospital-acquired infections are a serious public 
health problem that affects patients in hospitals all across 
the country. In the worst-performing hospitals, which includes 
some VA hospitals, up to ten percent of patients are harmed by 
such infections.
    A few years ago, a state agency in Pennsylvania analyzed 
millions of hospital records and found that the in-hospital 
mortality rate among patients who contracted infections was 
about five times higher than among patients who were not 
infected. Research has shown that most of these infections are 
preventable if hospitals and medical personnel adhere to 
systematic prevention measures. This starts with essential 
steps such as thorough, repeated hand-washing and isolation of 
infected patients. However, hand hygiene and other commonsense 
measures have been only partially successful.
    We are fortunate to have with us this morning three 
physicians who are experts in the field of preventing hospital-
acquired infections. As far as that goes, we have three doctors 
who are Members of these two Subcommittees this morning, and 
they are experts in their own right. We also have 
representatives from two companies that have developed new 
tools and technologies to prevent infections in hospitals. I 
look forward to learning more about the science behind fighting 
harmful hospital-acquired infections, and I am particularly 
interested in how the VA health care system, the largest 
integrated health care system in America, could deploy 
scientifically proven technology and practices with the goal of 
setting the highest standard of patient safety in all of its 
hospitals.
    Thank you, Mr. Chairman, and I will yield back.
    [The prepared statement of Mr. Smith of Texas follows:]

                 Prepared Statement of Full Committeee
                        Chairman Lamar S. Smith

    The long delays and unacceptable quality of VA health care for tens 
of thousands of our veterans has recently become public.
    Following up on a series of letters to the VA Inspector General and 
others, I recently met with Acting VA Secretary Gibson at the Audie 
Murphy Memorial Hospital in my district in San Antonio. I was reassured 
that he sincerely wants to fix the problems facing our veterans. But we 
need swift action and strong resolve to fix such a broken system at the 
VA.
    Veterans who live in the 21st Congressional District of Texas and 
across our country should have the best health care America can 
provide. American veterans have made tremendous sacrifices to protect 
and defend our freedoms. They deserve the best health care possible, as 
soon as possible.
    Today's hearing will enable us to understand more about patient 
safety and how scientific research and new technology can boost efforts 
to prevent patients from contracting serious infections while they are 
hospitalized.
    A number of VA hospitals are among the worst in the United States 
in terms of inflicting preventable infections on their patients.
    Hospital-acquired infections are a serious public health problem 
that affects patients in hospitals all across the country. In the 
worst-performing hospitals, which includes some VA hospitals, up to 10% 
of patients are harmed by such infections.
    A few years ago, a state agency in Pennsylvania analyzed millions 
of hospital records and found that the in-hospital mortality rate among 
patients who contracted infections was about five times higher than 
among patients who weren't infected.
    Research has shown that most of these infections are preventable if 
hospitals and medical personnel adhere to systematic prevention 
measures. This starts with essential steps such as thorough, repeated 
hand-washing and isolation of infected patients.
    However, hand hygiene and other common-sense measures have been 
only partially successful. We are fortunate to have with us this 
morning three physicians who are experts in the field of preventing 
hospital-acquired infections. We also have representatives from two 
companies that have developed new tools and technologies to prevent 
infections in hospitals. I look forward to learning more about the 
science behind fighting harmful hospital-acquired infections.
    I'm particularly interested in how the VA health care system, the 
largest integrated health care system in America, could deploy 
scientifically proven technology and practices, with the goal of 
setting the highest standard of patient safety in all of its hospitals.

    Chairman Bucshon. Thank you, Chairman Smith.
    At this time I would like to introduce our witnesses. Our 
first witness is Dr. Chetan Jinadatha--how did I do--very 
well--the Chief of Infectious Disease Section at the Central 
Texas Veterans Health Care System in Temple, Texas. Dr. 
Jinadatha is also an Assistant Professor of Medicine at Texas 
A&M University Health Science Center. He is the President of 
the Texas Infectious Disease Society. Dr. Jinadatha is board-
certified in infectious disease. He is also an active 
researcher in hospital-acquired infections, the role of 
environment in hospital-acquired infections, and the evaluation 
of no-touch disinfection technologies. Dr. Jinadatha completed 
his medical degree in India and his master's in public health 
at Texas A&M. Welcome.
    Our second witness is Dr. Elaine Cox, Professor of Clinical 
Pediatrics. Dr. Cox trained at Indiana University School of 
Medicine and has been on the faculty in the section of 
pediatric infectious disease since 1995. She is currently 
serving as the Medical Director of Infection Prevention, 
Medical Director of the Pediatric Antimicrobial Stewardship, 
and a Safety Officer for Riley Hospital for Children at IU 
Health. In addition to these and other clinical duties, Dr. Cox 
has spent much time working on legislation that impacts 
children's health in the State of Indiana. Dr. Cox earned her 
undergraduate degree in biochemistry from Indiana University 
and her medical degree from Indiana University School of 
Medicine. Welcome.
    Our third witness is Dr. Trish Peri. Did I get that right?
    Dr. Perl. Perl.
    Chairman Bucshon. Perl. My eyes. I should have put my 
glasses on, I guess. Dr. Perl is a Professor at the Department 
of Medicine and Infectious Diseases and Pathology at Johns 
Hopkins University School of Medicine and in the Department of 
Epidemiology at the Johns Hopkins Bloomberg School of Public 
Health. She is a Senior Epidemiologist for the Johns Hopkins 
Hospital--John Hopkins Medicine. Dr. Perl received her bachelor 
of arts and medical degree from the University of North 
Carolina at Chapel Hill and a master's of science degree from 
McGill University in Montreal. She completed her residency in 
internal medicine at McGill University and a fellowship in 
infectious diseases and clinical epidemiology at the University 
of Iowa in Iowa City.
    I now recognize Representative Todd Young from Indiana to 
introduce our fourth witness.
    Mr. Young. Thank you, Mr. Chairman. It is an honor to be 
here with you today. I would just like to say, you are a person 
of professional competence, high personal integrity and a good 
friend, so thank you so much for allowing me to introduce our 
witness, Jeffrey D. Smith, a Hoosier, a resident of Indiana's 
9th Congressional District and President and CEO of Electro-
spec, which is located in Franklin, Indiana.
    Mr. Smith and I had an opportunity to visit briefly 
yesterday, and it was clear during that brief visit that he 
cares as deeply as I do about the health of our Nation's 
veterans and preventing hospital-acquired infections in our 
Nation's Veterans Hospitals.
    He has been with Electro-spec since 1994 and held positions 
of increasing responsibility beginning as Vice President in 
1994. Mr. Smith is also President and CEO of Steriplate LLC, an 
Indiana corporation he formed in 2013. It focuses on the 
design, development and implementation of antimicrobial 
finishes for medical and commercial applications. In May of 
1997, Mr. Smith purchased the business from former owner David 
Yates and assumed the position of CEO and President at that 
time.
    I want to thank you for your presence here today and your 
testimony about your promising work on potential veteran-saving 
technology. Thank you, sir.
    I yield back.
    Mr. Broun. Would the gentleman yield?
    Mr. Young. Indeed.
    Mr. Broun. As a fellow Marine, I would like to correct a 
statement that you made. There is no such thing as a former 
Marine. Once a Marine, always a Marine.
    Mr. Young. I agree with the gentleman's comments. If the 
gentleman will yield?
    Mr. Broun. Certainly. Thank you.
    Mr. Young. I am told the taxonomy is, there is no such 
thing as an ex-Marine. There may be a couple of exceptions out 
there. But whatever. I am proud to be a Marine with you, and 
thank you. Duly corrected by the senior gentleman on the panel.
    Mr. Broun. Semper fi.
    Mr. Young. Semper fi. I yield back.
    Chairman Bucshon. Thank you. I now recognize the Chairman 
of the full Committee, Mr. Smith, to introduce our final 
witness.
    Chairman Smith of Texas. Thank you, Mr. Chairman.
    Mr. Chairman, I am happy to welcome Morris Miller from San 
Antonio, who is going to be testifying today.
    As CEO of Xenex, Mr. Miller is responsible for the 
company's business strategy and oversight of day-to-day 
operations. Under his guidance, the company has grown and 
established itself as the world leader in UV room disinfection. 
After starting his career as an attorney, Mr. Morris served as 
co-founder and President/CEO of Rackspace Hosting Inc., which 
now has over $1 billion in annual revenue and a market cap in 
excess of $5 billion. He is an alumnus of Phillips Exeter 
Academy, the University of Texas at Austin, and the Dedman 
School of Law at Southern Methodist University, as am I.
    Mr. Chairman, I yield back, and we welcome Mr. Miller.
    Chairman Bucshon. Thank you, Mr. Chairman.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
have five minutes each to ask questions.
    It is the practice of the Subcommittee on Oversight to 
receive testimony under oath. Does anyone have a problem with 
taking an oath? Then if you would please stand and raise your 
right hand. Do you solemnly swear or affirm to tell the whole 
truth and nothing but the truth, so help you God? Let the 
record reflect that all the witnesses participating have taken 
the oath.
    And at this point I will now recognize Dr. Jinadatha for 
five minutes for his testimony.

               TESTIMONY OF DR. CHETAN JINADATHA,

                  CHIEF, INFECTIOUS DISEASES,

           CENTRAL TEXAS VETERANS HEALTH CARE SYSTEM

    Dr. Jinadatha. Good morning, Chairman Dr. Bucshon, Chairman 
Dr. Broun, Chairman Smith, Ranking Member Maffei and Members of 
the Subcommittee. I thank you for the opportunity to 
participate in this important discussion today. My name is 
Chetan Jinadatha, and I am the Chief of Infectious Diseases at 
the Central Texas Veterans Health Care System and an Assistant 
Professor in the Department of Medicine at Texas A&M University 
Health Science Center.
    I currently serve as the President of Texas Infectious 
Disease Society. My area of research interest is reduction of 
hospital-acquired infections using technology including the 
effectiveness of ultraviolet disinfection.
    It is reported that hospital-acquired infections cause 1.7 
million infections and 100,000 deaths annually within the 
United States, costing health care systems $30 billion to $40 
billion. Methicillin-resistant Staph aureus-related hospital-
acquired infections alone cost $9.7 billion annually. It is 
hard to predict the percentage of preventable hospital-acquired 
infections but most facilities aim for zero hospital-acquired 
infections.
    Patients may harbor resistant organisms prior to admission 
and not have any signs or symptoms. However, the same patient 
may develop an infection from the organism that they came with 
or acquire a new organism during their hospital stay, thus 
resulting in a hospital-acquired infection.
    The hospital environment includes surfaces in the patient 
room, equipment or the hands of health care workers who acquire 
it from touching other patients or surfaces. An estimated 20 to 
40 percent of hospital-acquired infections in the United States 
have been attributed to cross-contamination by a health care 
personnel hands, either by direct patient or by touching 
contaminated environmental surfaces.
    Recent literature has indicated that supplementing manual 
cleaning with disinfection technologies such as hydrogen 
peroxide systems or UV light technology systems decreased 
microbial burden on high-touch surfaces such as bed rails, call 
buttons, toilet seats in patient rooms.
    Although the systems add cost and time to the disinfection 
process, the bacterial load reduction after using these systems 
effectively complements manual cleaning. Preliminary evidence 
suggests from a single center study showed a 52 percent 
reduction of Clostridium difficile hospital-acquired infection 
with the implementation of UV-based protocol. A federally 
funded, multi-center study in private setting is currently 
underway to evaluate the effectiveness of UV in reducing 
hospital-acquired infections.
    Similarly, several studies that have shown decreased multi-
drug-resistant organism acquisition and reduction in hospital-
acquired infection rates after implementation of hydrogen 
peroxide system across hospitals. In comparing the hydrogen 
peroxide system to that of an ultraviolet system, hydrogen 
peroxide requires prolonged exposure time and ventilation 
system modification for aeration but disinfects better than UV. 
UV technology disinfection time is shorter than hydrogen 
peroxide but it has lower bacterial reduction on surfaces.
    Hence, technologies such as ultraviolet or hydrogen 
peroxide have the potential to have an impact on transmission 
of pathogens in the hospital environment and possibly prevent 
life-threatening infections. A federally funded study is 
currently underway to evaluate the effectiveness of UV on 
hospital-acquired infection rates in four Veterans Affairs 
Medical Centers, one of which is mine.
    In 2013, the Central Texas Veterans Health Care System 
initiated several patient safety initiatives to decrease the 
risk of developing hospital-acquired infection including the 
deployment of ultraviolet disinfection system after manual 
cleaning.
    Reducing hospital-acquired infection requires a multi-
prolonged approach. Interventions or technologies such as 
ultraviolet or hydrogen peroxide do not decrease the importance 
of rigorous hand-washing, isolation of appropriate patients, 
and other measures to prevent the spread of pathogens in 
hospitals. New technologies for prevention do not obviate the 
need for manual cleaning or antimicrobial stewardship. Health 
care professionals must work together with the patients to 
prevent the spread of antibiotic-resistant organisms in health 
care settings.
    Meanwhile, further research is needed to ascertain the 
generalized ability of our studies and define the specific role 
of new technologies in hospital-acquired infection prevention. 
Emergence and spread of antibiotic-resistant bacteria is a 
significant public health threat. In addition to basic 
infection prevention and control practices such as hand hygiene 
and the use of isolation precautions, good antibiotic 
stewardship and use of supplemental technologies may provide 
effective and improved strategies to prevent the spread of 
health care-associated infections and create a safer 
environment for our patients.
    Mr. Chairman, this concludes my testimony. I welcome any 
questions from the Committee.
    [The prepared statement of Dr. Jinadatha follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you, Doctor.
    I now recognize our second witness, Dr. Cox, for five 
minutes.

                  TESTIMONY OF DR. ELAINE COX,

               PROFESSOR OF CLINICAL PEDIATRICS,

               DIRECTOR OF INFECTION PREVENTION,

        DIRECTOR OF PEDIATRIC ANTIMICROBIAL STEWARDSHIP,

                  RILEY HOSPITAL FOR CHILDREN

    Dr. Cox. Good morning. On behalf of Riley Hospital for 
Children at IU Health, I want to thank all of you here for your 
continuing commitment to patient safety by focusing on 
hospital-acquired infections in all patients. Riley Hospital is 
a self-standing children's hospital with an 85-year history. We 
see about a quarter of a million patients a year and we are 
part Indiana University School of Medicine, which gives us a 
lot of opportunity for research and development of 
technologies.
    So we have heard a lot of statistics this morning: nearly 2 
million infections, 100,000 deaths, one in 25 of our 
hospitalized patients every day having a hospital-acquired 
infection. This results in about 7.5 million excess hospital 
days in our country every year, increasing our length of stays 
by about three to ten times over the expected.
    When you look at cost, conservative cost measurements for 
direct cost are about $5 billion to $6 billion, and when you 
add in total costs, it is certainly upwards of $30 billion.
    But I don't think that these statistics necessarily clarify 
the entire picture of personal cost. So I work in a children's 
hospital and I will share with you that recently we had a baby, 
a newborn, in for heart surgery. Now, that takes two weeks to 
get out of the ICU and 4 weeks to get out of the hospital, 
minimum. This family had a 3-year-old at home that they were 
away from all these weeks. They finally promised their son they 
would be home for the weekend and they would spend time with 
him when the baby acquired a central-line-associated 
bloodstream infection, or a CLABSI. This set that baby's 
recovery back 6 to 8 weeks and devastated a 3-year-old at home. 
I think the personal costs suffered by these families that 
encounter these infections go far beyond the event itself and 
is not reflected in our statistics.
    You know, fighting infection has always relied on 
prevention, whether it is from vaccination or the development 
of the bundle, which we now all use to prevent infections, as 
the Chairman said. We have used it at Riley. We have cut our 
CLABSI rate by 65 or 70 percent. But the question is, is that 
enough? Is that enough for any of our patients, our veterans 
all the way to our babies?
    I think the other problem is that we have plateaued. What 
are our other strategies? Well, certainly we have a reaction 
position we can take. We can treat with antibiotics. That is 
kind of the horse already being out of the barn. By then, 
infection is already set up.
    You know, antibiotics have changed the face of infectious-
disease treatment in America, which has been great, but it has 
also led to the development of resistance. This is accelerating 
in our time, and it is directly due to antibiotic overuse and 
use, and there is no antibiotic we have currently that is 
impervious to the development of resistance. These are 
important players in HAIs. They occur in about 16 percent of 
the events, and over infections that have susceptible organisms 
they increase length of stay by an additional 20 percent and 
cost by an additional 30 percent.
    We use antimicrobial stewardship, we use isolation and we 
have slowed the development and spread of resistance but we 
haven't eradicated it, and CDC just recently came out and said 
that infection with these multi-drug-resistant organisms is an 
emerging threat to health care in the United States.
    In light of all that, I think we do need to look at new 
technologies. We have used some things in the environment. Can 
we expand that? Can we get beyond 55 to 65 percent safe for our 
patients? I think we have known the effects of metals for 
years. Why can't we expand their use in the environment? And 
can we look at the patient level? Can we coat things like 
orthopedic rods and ventriculoperitoneal shunts and cardiac 
implants so that we can prevent infections at the patient 
level?
    We have known about the germ theory since the mid-19th 
century. We have the Institute of Medicine report, ``To Err Is 
Human,'' on patient safety since 1999 and yet we are still 
struggling. We are still only 55 to 65 percent safe for the 
patients in our environment who trust us to care for them.
    The impact financially on the health care budget is severe 
and negative, and I think if we could whip this problem as much 
as possible, we could turn those resources to other initiatives 
for patient safety and patient quality of care and, above all, 
do no harm, as is our oath.
    I thank you for this hearing.
    [The prepared statement of Dr. Cox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you.
    I now recognize Dr. Perl for your testimony.

                TESTIMONY OF DR. TRISH M . PERL,

              PROFESSOR OF MEDICINE AND PATHOLOGY,

               JOHNS HOPKINS SCHOOL OF MEDICINE;

                   PROFESSOR OF EPIDEMIOLOGY,

               BLOOMBERG SCHOOL OF PUBLIC HEALTH;

         SENIOR EPIDEMIOLOGIST, JOHNS HOPKINS MEDICINE

    Dr. Perl. I will start by turning on the microphone.
    Chairmen Bucshon and Broun, Chairman Smith, Ranking Members 
Maffei and Lipinski, and distinguished Members of this 
Subcommittee, thank you for the opportunity to appear today.
    I will share lessons learned from hospital attempts to 
integrate technology into clinical care and highlight the 
importance of using scientific assessment to ensure hospitals 
make cost-effective and evidence-based decisions to improve 
patient outcomes.
    I am a Physician and a Professor at Johns Hopkins 
University and their Senior Epidemiologist, and I am also the 
former President of the Society of Health Care Epidemiology of 
America, which is the professional society that works around 
health care-associated infections and multi-drug-resistant 
organisms.
    That aside, my job has allowed me to study novel 
technologies including no-touch technologies and to investigate 
outbreaks associated with new products and devices, i.e., in 
other words, the unintended consequences of using these devices 
in the health care environment.
    The Committee should be aware that I am doing a large 
research study that is partially funded by the VA, and my 
husband is employed by the University of Maryland and the VA.
    Health care-associated infections, as everyone has 
mentioned, are common and actually cause about half of the 
untoward events that occur in health care affect approximately 
four percent of all patients. As we have heard, they are costly 
to patients and to the health care system, and to prevent these 
health care-associated infections, we encourage hand hygiene, 
vaccination, isolation, and more and more integrating 
technology. Many novel technologies are introduced into the 
market every year. It is commonly difficult to determine the 
merit of each device or idea without independent, well-designed 
studies that look at their efficacy.
    I would actually like to review two personal experiences of 
why we need to be thoughtful about using technology and how we 
need to approach our efforts to protect patients. Approximately 
eight years ago, we began a study at our institution and looked 
at a technology that vaporized hydrogen peroxide, an excellent 
disinfectant, into the environment. The goal is to disinfect 
surfaces that were potentially contaminated with bacteria 
despite terminal cleaning. The technology was intriguing and 
expensive yet there were unknowns including around patient 
safety and the impact on our other expensive equipment. 
Ultimately, we developed a study, and after testing in our 
intensive care units, we significantly decreased the risk of 
acquiring a multi-drug-resistant organism in the patients in 
those units. No risk to patients, damage to equipment or the 
facility was identified. Hence, our recommendation to our 
leadership was to continue using this technology, and it was 
based on scientific evidence. We have subsequently showed that 
we can use this technology to disinfect surfaces of supplies 
that are in these rooms, they can be reused, and it leads to 
cost savings that help pay for this technology.
    Another story is in mid-October 2004, our institution 
introduced a new mechanical valve needleless device, which is 
used on IV tubing. These are devices that decrease needle 
sticks among health care personnel. By April of 2005, 
approximately six months later, the catheter-associated 
bloodstream infection rate in our children's hospital had 
increased by 60 percent. Using fluorescent dye, we determined 
that these devices could not be cleaned using standard 
techniques. When we removed the device from our institution, 
our rate returned to normal. What seemed to be a very benign 
introduction of a nursing product turned into significant 
patient safety issue for our patients.
    So in summary, health care-associated infections are a 
significant challenge for health care despite strides to date, 
there are huge opportunities to improve patient safety and we 
should begin and insist upon the basic infection prevention. 
However, there is a role for technology that can improve our 
processes and protect patients. This technology, while often 
tantalizing, can have unexpected consequences and we must be 
vigilant in our approach to its introduction.
    Congress should continue its long history of supporting 
science, and this is an area where science needs to guide 
decisions so we are thoughtful about how to introduce and use 
technology. The health care community should develop standards 
to measure the effectiveness of new technologies like this new 
touch disinfection that are being discussed today so we can 
measure their efficacy in a standard fashion. Congress should 
consider funding learning labs or centers of excellence to 
evaluate these exciting products in the context of patient care 
using trained scientists. These labs consider the multiple 
issues that impact patients to assure we do not do harm. There 
is not a one-size-for-all solution, and this effort needs the 
expertise that will translate science into effective patient 
care.
    Thank you.
    [The prepared statement of Dr. Perl follows:]
   
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you, Dr. Perl.
    I now recognize Mr. Smith for five minutes to present his 
testimony.

                  TESTIMONY OF MR. JEFF SMITH,

                 PRESIDENT, ELECTRO-SPEC, INC.

    Mr. Smith. Thank you, Chairmen Bucshon, Broun and Smith, 
Members of the Committee, and Congressman Young for that nice 
introduction. I am not nearly as eloquent as my doctors are on 
the panel so I might sneak a ``y'all'' into my testimony. We 
will see.
    I am President of Electro-spec and Steriplate. What we do, 
we specialize in high reliability and highly functional 
electroplating of devices for the military, aerospace, medical 
and automotive industries, and the reason I am here today is to 
talk about a new technology that we have developed called 
Steriplate. Steriplate was designed specifically for medical 
applications, antimicrobial situations hopefully to make a 
dramatic impact in the transmission of HAIs.
    But first I want to draw kind of an analogy to what the 
statistics that were shared with you previously. Imagine a 
Boeing 737 crashing every single day in the United States with 
200 people on board and there are no survivors. Can you imagine 
what the general public would be? Can you imagine what the FAA 
would be dealing with? That is what we are dealing with with 
HAIs, just to put things in perspective. The Department of 
Health and Human Services has made this an agency priority goal 
for HAIs. They have new metrics in place with goals hopefully 
to be achieved by the year 2020. So it is a big issue 
obviously. Copper and copper alloy as well as antimicrobial 
metal coatings are the one continuous, sustainable method for 
reducing the bacterial burden that you have on surfaces, 
whether they are in body or out of body. Our Steriplate 
process, which I have some examples here for you, employs 
copper as one of the metals as well as another antimicrobial 
metal in the process, and it is designed specifically for again 
antimicrobial functionality but also by alloying in other 
metals, we designed a metal that has more tarnish resistance, 
corrosion resistance and wear resistance than traditional 
copper. The antimicrobial testing that we have done thus far 
specifically on the traditional HAI bacteria, E. coli, for 
example, we had a 99.9998 percent reduction. With MRSA, we had 
a 99.998 percent reduction, and similar results against C. diff 
and B. subtilis bacteria.
    Another aspect of Steriplate that we have designed is using 
nanotechnology in the process to impart hydrophobic or 
hydrophilic surface. The hydrophilic surface is designed to 
provide an antimicrobial that is on touch surfaces outside the 
body. We are currently using this technology for surfaces that 
typically can be contaminated by touch or translocation as 
well. The hydrophobic aspect of Steriplate really was designed 
for in body, and what we are trying to do is repel typical 
solution in terms of blood, urine, cerebral fluid, whatever it 
may be, and the applications that we are working on right now 
in terms of implantable devices are everything from VP shunts 
to Baclofen pumps for cerebral palsy, scoliosis rods, access 
ports for dialysis, just to name a few, the traditional types 
of devices that have a high rate of infection associated with 
them.
    Another aspect of this is also to potentially have a 
surface that is antithrombotic to prevent clotting as well, so 
an antimicrobial and antithrombotic surface.
    But to summarize today for you, the time, cost and 
complexity associated with developing this technology is huge. 
You know, we are geared specifically to try to provide an 
answer to not just the Veterans Hospitals but hospitals across 
the United States. We are a small company. We have 85 
employees. But we have reinvested about 30 percent of our net 
profit back into developing this technology. So it is really 
critical for us to be able to be here today to present our 
technology to share with you our findings as well as hopefully 
be able to solicit help from federal agencies like NIH, CDC, 
National Science Foundation, Veterans Affairs as well or any 
other federal agencies that might be able to help us continue 
to develop the technology behind Steriplate and hopefully 
antimicrobial surfaces in general.
    Thank you very much.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. Thank you very much, Mr. Smith.
    I now recognize Mr. Miller for five minutes to present his 
testimony.

                TESTIMONY OF MR. MORRIS MILLER,

                    CHIEF EXECUTIVE OFFICER,

                  XENEX DISINFECTION SERVICES

    Mr. Miller. Good morning. Thank you, Chairman Smith, 
Chairmen Broun and Bucshon and other distinguished Committee 
Members. It is an honor to be here today.
    Every year, HAIs cost $20 billion and kill 100,000 
Americans, more than breast cancer, auto accidents and HIV 
combined. This is a devastating problem, so I wanted to share 
some good news with the Committee. Hospitals that use our germ-
zapping robot kill pathogens and drug-resistant superbugs and 
their infection rates have dropped more than 50 percent. I am 
joined today by Dr. Mark Stibich, who along with his Xenex co-
founder, Julie Stachowiak, both hold Ph.D.'s in epidemiology 
from Johns Hopkins. They founded Xenex to stop hospital-
associated infections.
    Just two years ago, scientists were unsure the role of the 
environment in the passage of the infections from patient to 
patient. Over the past two years, we know without a doubt that 
these pathogens and superbugs exist on bed rails, remote 
controls, nurse call buttons, telephone handsets. These 
superbugs are microscopic. We have spent--I have spent a lot of 
time with housekeepers over the past two years. These are some 
of the hardest-working Americans you have ever met. They cannot 
do the task that is assigned to them in the time that they 
have. They clean but they cannot disinfect every surface, and 
they never know whether they have eliminated the microscopic 
superbugs. Now in our hospitals, they clean and then they use 
our Xenex robots. We call them housekeeping heroes.
    My written testimony has every detail of our proven, peer-
reviewed outcome studies in journals like American Journal of 
Infection Control. To summarize, we have seen a sustained 53 
percent reduction in C. diff infections. We have seen a 
sustained 56 percent reduction in MRSA, also known as staph 
infections. Just this week, two VAs told us, Muskogee, 50 
percent drop in overall infections, Iowa City, 30 percent drop 
in C. diff. This is the only technology of its kind that has 
shown this ability to impact rates.
    Now, since 1901, we have known that we can use ultraviolet 
light put out by low-intensity narrow-spectrum mercury bulbs to 
disinfect things like water. In the hospital where room 
turnover time is critical, they are too slow. The Xenex robot 
uses full-spectrum, high-intensity pulsed xenon bulbs to create 
UV light and destroy the DNA of bacteria in four ways. The 
light is 25,000 times brighter than sunlight. Disinfection 
takes about five minutes. The pathogens have no defense.
    At the end of 2013, more than 200 hospitals including 26 VA 
Hospitals now utilize the technology. How do we know the 
results that have been peer-reviewed and published? Because our 
customers purchase the devices, they achieve the results. They 
were so excited that they decided to publish them.
    Just recently, a new customer, an infection preventionist 
from a California hospital, came to me. They had an outbreak in 
their labor and delivery suites. Sixty mothers and their 
newborns, didn't ask for it, all got MRSA. They were fighting 
it. They were following all of the CDC guidelines. They 
couldn't stop it. In desperation, they called us. We sent over 
one of our employees. The employee began disinfecting the 
rooms. Within three days, the outbreak stopped. There have been 
no more infections since.
    So the next logical question I would think is, well, what 
is the cost of technology like this? It is about $1 per patient 
day. And the return on the investments for a 36-month use of 
the robot, the hospitals tell us it pays for itself in about 
four months.
    So one of the questions you asked was, what can Congress 
do? On Hospital Compare, which is a Web site that you all 
insisted on sharing data, insist on more data, specifics on 
MRSA, C. diff, VRE and the other infection rates that we know 
are preventable. To the extent that you can, don't pay for 
preventable infections, and a little bit outside the box, 
incentivize hospitals. If you gave them $1 to $1.50 per patient 
day that they could bill through to use this advanced 
disinfection, this would give patients the disinfection they 
need and don't know to request.
    In 1968, Congress mandated that automakers install 
seatbelts. In 2012, seatbelts saved over 12,000 lives. If 
Congress mandated the proper disinfection of these hospital 
rooms, we could save that many lives in two months.
    I feel pressure every day because 5,000 Americans are 
infected and 273 die. We have the technology to save them. If 
you or a loved one ever has to go to a hospital, you would like 
to know that your hospital or procedure room would not make you 
sick.
    Let us work together to prevent millions of infections and 
save 50,000 lives a year. Our veterans, their families and all 
Americans deserve no less.
    Thank you.
    [The prepared statement of Mr. Miller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bucshon. I would like to thank the witnesses for 
their testimony, and reminding Members that the Committee rules 
limit questioning to five minutes. At this point the Chair will 
open the round of questions. I recognize myself for five 
minutes.
    I want to start with Dr. Perl because one of my areas--I 
mean, I was a cardiovascular and thoracic surgeon, and other 
than orthopedists, probably the most infection-averse people in 
the hospital. It is obviously a disaster when it happens.
    I have always been interested in when people come in how 
to, you know--what the patient themselves are bringing into the 
hospital and what the effect not just on hospital-based 
antibiotic use but outpatient antibiotic use as on the 
development of resistant bacteria, and I can say this because I 
have four kids and they have all kinds of ear infections and 
everything, and I have parents who are seniors who get 
antibiotics for all kinds of things that they probably 
shouldn't. Can you just discuss a little bit about maybe some 
of the things we might do in training infectious-disease 
professionals or internists about really how to manage that on 
an outpatient basis because I do think that has a significant 
impact on inpatient hospital infection.
    Dr. Perl. Yes. Thank you for the question, and I think you 
are absolutely correct. The reality is that we don't have all 
the answers but what we can tell you is, even actually after 
one dose of antibiotics, you can develop resistant organisms. 
It has been best studied actually in the perioperative surgical 
setting where they have looked at that. So the challenge really 
is to really make sure that we use antibiotics appropriately, 
and to do that, we really have to enhance diagnostics. When we 
can differentiate whether somebody has a bacterial infection 
versus a viral infection, you can direct your therapy much more 
appropriately to limit the use of antibiotics, to define 
duration, course durations, and also to make sure that we 
simplify the antibiotic and really use one that we don't go 
more broadly than we need to.
    So in terms of what we can do in the outpatient setting, it 
is almost like it is really common sense. Just make it simple. 
Make sure it is for the right thing and----
    Chairman Bucshon. And I think, don't you also think that it 
is a public education process? I mean, how many--every 
practicing physician has had a patient come in and they clearly 
have a viral infection but it keeps going and they just have a 
hard time believing that it is not something that needs to be 
treated with antibiotics. It is probably a multipronged 
approach, right? I mean, all of us that practice medicine know 
that phenomenon, right? And what happens is, the patient will 
ultimately get antibiotics from someone, and so how do we solve 
that problem? Maybe we can--is there a way we can bring this 
more to the public attention than we already are?
    Dr. Perl. I don't have all of the answers but I would 
certainly tell you that there have been very effective public 
health campaigns that we could look to. I mean, we have been 
able to reduce smoking. We have been able to get people to use 
car seats. We have been able to get people to use seatbelts. So 
I think that there are clearly examples out there but it 
requires directed, concerted effort from multiple groups, as 
you know, not only directed at health care professionals but 
also, as you point out, the public.
    Chairman Bucshon. Thank you. That is a big problem to 
solve.
    Dr. Cox, are there different or more significant risks 
resulting from hospital-acquired infections at pediatric 
hospitals, such as IU Health, comparing children to adult 
hospitals? Is there a difference?
    Dr. Cox. So there is a difference. Children are not just 
short adults, certainly, but I think it is sort of interesting 
if you look at the two ends of the spectrum, sort of what you 
have at this end of the table, very young infants and very 
elderly patients. Their immune systems do not function quite as 
well as they do in the peak times of their life and so they are 
both at risk. I also think when you look at self-standing 
children's hospitals, there is a lot of referral patients, the 
very complicated problems. They require a lot of 
instrumentation. So you are a cardiovascular surgeon. All 
cardiovascular open hearts who have been on the pumps require a 
lot of instrumentation, no matter your age, and those are the 
risks that occur everywhere, even beyond children.
    Chairman Bucshon. Okay. Thank you.
    And are there--at Riley, what is your review process you 
identify a hospital-acquired infection and do you think--has 
that morphed over time to change or improve the process to try 
to retrospectively find out why exactly that happened? Do you 
have information on that?
    Dr. Cox. We do. So I think it is pretty typical, I think, 
of what is becoming the norm across the country. So it used to 
be nobody worried about this, it is just a little bit of extra 
antibiotic, until that became clear that that is not 
appropriate, and so now what hospitals do, including ours, is 
we have a standardized work flow. Every single infection in our 
hospital that is hospital-acquired is investigated. There is a 
form. Our nursing staff, our clinical nurse specialists who are 
advanced practitioners, sort of lead the information gathering. 
We review the chart. We interview everybody who took care of 
the patient in that 48 hours prior to the onset of the 
infection. Then we sit down as a multidisciplinary group, RTs, 
physical therapists, nurses, doctors, everybody, pharmacists, 
that we can get and we look at every piece of that puzzle.
    What has happened over time is initially we had all these 
aha moments, right--oh, this shouldn't have happened, we should 
have used this technique, we didn't do that. I think over time 
as we have gotten better, we have sort of picked that low-
hanging fruit, if you will, and we have cleared up those things 
that are easily done and so we have seen our infection rates go 
down. What becomes the challenge then, right, as we review 
these cases, the solutions get harder and harder and so we need 
to come up with new strategies that don't replace what we have 
always done but just augment them.
    Chairman Bucshon. Thank you very much, and my time is 
expired so I will recognize Mr. Swalwell for his questioning.
    Mr. Swalwell. Thank you, Chair, and good morning to our 
witnesses.
    I wanted to start by first comparing our VA Hospitals to 
non-VA Hospitals across the country, and I just want to go 
witness by witness. Yes or no, to your knowledge, is there any 
known difference in any studies that you are aware of or 
anecdotally in hospital-acquired infections at VA Hospitals as 
compared to non-VA Hospitals. I will start with Dr. Jinadatha. 
Yes or no?
    Dr. Jinadatha. No.
    Mr. Swalwell. Dr. Cox?
    Dr. Cox. No.
    Mr. Swalwell. Dr. Perl?
    Dr. Perl. No.
    Mr. Swalwell. Mr. Smith?
    Mr. Smith. No.
    Mr. Swalwell. Mr. Miller?
    Mr. Miller. Don't know.
    Mr. Swalwell. And Dr. Jinadatha, are you aware of any 
studies underway or in your own experience working with 
patients in central Texas who are veterans with regard to HAIs?
    Dr. Jinadatha. Yes, sir. As I mentioned in my testimony, we 
have a multicenter study where we are looking at how does 
implementation of UV technology affect outcomes such as 
hospital-acquired infections so we have two intervention sites 
and two control sites so we are comparing standard practice 
versus enhanced cleaning to see if that makes a difference.
    Mr. Swalwell. Great. And certainly in the last six months, 
we have learned a lot about Veterans Hospitals. Over the last 
four to five years, we have learned a lot about the veterans' 
claims disability backlog and most on this panel, I assume, 
would agree and most of my colleagues would agree that what we 
promise our veterans and how we treat our veterans is not 
matching up and that we promised them that we will take care of 
them and right now we have unacceptable backlogs in the care in 
some of these hospitals that have been highlighted like in 
Phoenix, for example, is outrageous and not what they deserve.
    However, I am concerned that by having this hearing, we may 
be alluding to or implying that a problem exists that does not 
exist, and we could further hurt confidence that our veterans 
have in our health care system by implying that HAIs exist or 
occur at a greater rate at VA Hospitals than they do elsewhere, 
and so Dr. Jinadatha, is it your experience that you are not 
seeing at least in the central Texas system anything that would 
exceed your area, community or private hospitals?
    Dr. Jinadatha. We are a very small facility, sir. We have 
90 operating beds. So our infection rates when we compare it to 
our hospitals of our similar size, we are at national average 
or below national average on some of the measures.
    Mr. Swalwell. And Mr. Smith called for to study this not 
just for our Veterans Hospitals but for non-Veterans Hospitals 
additional federal funding for the CDC, for the NIH, for the 
National Science Foundation, and just going again across with 
the witnesses, would you agree that when we are making our 
budgeting priorities we should be increasing funding for those 
programs or cutting funding? So would you say increase or cut, 
Dr. Jinadatha?
    Dr. Jinadatha. Since I am a researcher, increase.
    Mr. Swalwell. Okay. And Dr. Cox?
    Dr. Cox. Increase.
    Mr. Swalwell. And Dr. Perl?
    Dr. Perl. Increase.
    Mr. Swalwell. Mr. Smith?
    Mr. Smith. Yeah, definitely increase.
    Mr. Swalwell. And Mr. Miller?
    Mr. Miller. Increase with incentives.
    Mr. Swalwell. And actually I am glad you brought up those 
incentives because Dr. Perl, starting this fall Medicare is set 
to impose penalties on hospitals that have poor infection 
control rates as an incentive to improve quality of care. Do 
you believe that this is a reasonable policy that will help 
reduce hospital infection rates? And then Mr. Miller, if you 
could follow up on that?
    Dr. Perl. I am not a public policy researcher but I think 
that if it does go ahead, and in your opinion, that is the way 
the country should go, that we absolutely need to make sure 
that we don't have untoward consequences as a result of that. I 
mean, I think the risk is that we lose resources that may be 
supporting some of the practices that all of us have been 
talking about.
    Mr. Swalwell. Great. And Mr. Miller, is that an incentive 
you would support, and could you give us examples of others 
that you might support?
    Mr. Miller. So I think the--I am in support of including 
more in Hospital Compare data and increasing the penalties on 
value-based purchasing, making sure that things like MRSA, C. 
diff, VRE, Gram-negative staph, that those are all included in 
there so that the hospitals absolutely know they are not going 
to make money by making the patients sick. Is that responsive?
    And then the second thing is, the other idea is, that's the 
stick, and then providing them with an incentive that enables 
them to say okay, I have got 20,000 patient days coming up, I 
can afford to buy the technology that is going to save you 20 
to one on your spend, that is more direct.
    Mr. Swalwell. Thank you, Mr. Miller, and Mr. Chair, I yield 
back the balance of my time.
    Chairman Bucshon. I want to take a personal privilege and 
just comment briefly on what has happened at hospitals when 
Medicare decides not to pay for infections, for example, in 
cardiovascular surgery when you have a sternal wound infection. 
They decide not to pay for it. Now the hospitals that I have 
worked at now culture everybody when they come into the 
hospital and it is flooding our microbiology labs with nasal 
swab cultures and others to try to prove that indeed the 
infection came to the hospital with the patient. So your 
comment on unintended consequences of public policy is well 
taken.
    I now recognize Dr. Broun for five minutes.
    Mr. Broun. Thank you, Dr. Bucshon.
    By the way, Mr. Swalwell, there are some studies that show 
that some VA hospitals have higher infection rates than others, 
so there is data.
    Back to my question. Dr. Jinadatha, as I alluded to in my 
remarks, the Veterans Health Care Administration executives in 
Washington apparently have access to detailed information about 
quality care and patient safety at individual VA hospitals all 
across the system but a lot of this information is not 
available to the public. As the Chairman of the Oversight 
Subcommittee, I am a huge proponent of transparency and 
accountability. So when I hear that some VA hospitals exceed 
the infection rates of private-sector hospitals by 10 times or 
more, it seems especially important to alert veterans to the 
kind of medical treatment that they should expect to receive.
    So why isn't the VA more forthcoming in providing objective 
information and data about individual patient outcomes in VA 
hospitals?
    Dr. Jinadatha. Mr. Chairman, I am a frontline clinician and 
I usually focus on what I can do for the veteran that is at my 
hospital. Unfortunately, I will have to take it for the record 
and see what I can get back.
    Mr. Broun. Well, if you would, please, because I think it 
is imperative that patients know what the infection rates are, 
et cetera, as well as all patient outcomes at various 
hospitals.
    I will ask all witnesses this. If the two technologies 
represented here today were implemented properly at all VA 
hospitals, how much would that improve current conditions? In 
addition to highlighting technologies that can help improve vet 
infections and death, what more can Members of this Committee, 
Members of Congress do to improve care for our veterans? And 
Mr. Miller, I know you offered some suggestions in your 
testimony so let us start over here on the other side with Dr. 
Jinadatha.
    Dr. Jinadatha. Generalizing one center experience and 
applying it across all VAs, I don't know whether it will 
decrease or not because I believe every hospital is different. 
The patient population is different. The procedure done is 
different. The culture is different. So I don't know whether 
that will solve the problem. It might help some institutions 
and it may hurt some institutions, depending on the local 
conditions.
    Dr. Cox. You know, it is a difficult thing. I think first 
and foremost, people should know the kind of care they are 
entitled to get and what they should expect. I think 
accountability comes from knowledge, and I think educating the 
consumer as well to the role that they pay is critically 
important. We don't need an antibiotic for everything, and you 
know, you don't need a line in longer just because it is more 
convenient, and we need to consider how we prepare the entire 
care team, which includes not only the hospital-based personnel 
but the patient and family themselves, and I think that can go 
a long way. I think all of these strategies can augment it. The 
question is, are we ever going to get to zero, and I think that 
is a question we think probably not but can we be closer.
    Mr. Broun. Dr. Perl, if you would answer quickly, I have 
got some more questions and I want to go forward so I am about 
to run out of time in another minute and a half.
    Dr. Perl. Well, just to sort of add to what has been said, 
we actually don't know. There have been not been any head-to-
head studies, and I think this Committee needs to really 
recognize that there are incremental potential benefits or 
incremental potential detriments with any of these 
technologies, and they must be studied in a very rigorous way 
so that we make good choices.
    Mr. Broun. Thank you. And I will just--Mr. Smith, if you 
don't mind, I have got another question that I would like to 
ask Dr. Cox and Dr. Perl.
    Both of you referred to the concept of the bundle and you 
referenced that in your testimony. It is an approach that 
appears to have helped in you all's own hospitals to decrease 
infection rates significantly. So what specifically does the 
bundle entail, and do you see this is something that can be 
implemented in the VA Hospitals? Dr. Cox?
    Dr. Cox. Yes. So the bundle is just a series of very easy 
things--wash your hands, scrub the hub, let it dry, access with 
aseptic technique, review every day if you need this device in 
place, and it is tweaked a little from device to device but 
that is the basic premise, and the beauty of it is, it is very 
inexpensive and it is very quick and it is very easy to do, and 
it should be able to be done not only in all hospitals and VA 
hospitals but in resource-limited countries as well.
    Mr. Broun. Dr. Perl, any addition to that?
    Dr. Perl. No, I would agree with what the witness said. I 
would just add that actually there have been some data in VA 
hospitals looking at implementation of these bundles that have 
actually shown they are effective. So they are device-specific 
but they can actually give people very structured processes 
that facilitate good care.
    Mr. Broun. Thank you all.
    Mr. Chairman, if I may take a point of personal privilege?
    Chairman Bucshon. Sure.
    Mr. Broun. As a family-care doctor, I just want to state 
that something I fought my whole medical career is 
overutilization of antibiotics in patients, and I have had 
patients come to my office, as all primary-care physicians do, 
for every earache, for every child or every sore throat, every 
cough, even bronchitis, most of these are due to viral 
illnesses or allergies, and antibiotics are not appropriate in 
that treatment modality for taking care of those patients. 
Patients have to be responsible too.
    I have spent a career trying to educate my patients and my 
patients' moms and dads that antibiotics are not the solution 
to every fever, and whatever we can do, whatever you can do, 
whatever the medical community can do to try to help stop this 
overutilization of antibiotics is something that I focused upon 
my whole medical career and it is absolutely imperative that we 
continue to do that.
    And one other final comment, Mr. Chairman, is that these 
hospital-acquired infections just--they are a whole plethora of 
things, whether it is a nosocomial pneumonia, as you very well 
know, whether it is Legionella that develops from a faulty air 
conditioning system, whether it is a catheter or an IV set or 
anything else or whether it is a heart valve, the problem has a 
whole wide variety of potential causes and so it is not a very 
simple thing to say the bundle is going to protect our patients 
from infections, and it is just absolutely--I thank you or 
helping us put together this hearing, and I yield back. I thank 
you for the leeway.
    Chairman Bucshon. Thank you, Mr. Broun. I now recognize the 
Chairman of the full Committee, Mr. Smith.
    Chairman Smith of Texas. Thank you, Mr. Chairman, and let 
me direct my initial questions to Mr. Miller.
    Mr. Miller, in your oral testimony today, you gave us the 
good news that on the whole, you felt like your device, your 
technology has reduced infections by about 50 percent, 
sometimes a little bit more, sometimes a little bit less. That 
is a phenomenal drop and has incredible consequences if you can 
reduce the infections by half. To take it to the next step, 
that means you are saving a lot of lives as well.
    My question is merely--I would like for you to expand a 
little bit more on how effective your technology is in creating 
a bacteria-free environment, particularly compared to other 
methods that are used.
    Mr. Miller. Thank you. So I think this also responds to Dr. 
Broun as well. Before we ever released the product, we did 
testing at M.D. Anderson, and at M.D. Anderson, comparing post-
cleaning rooms versus rooms that were cleaned with Xenex, we 
found that the cleaning didn't make a statistically significant 
difference. In other words, whether you clean the room or 
didn't clean the room, if you ran the robot, there ended up 
being 20 times less bacteria. This is on a colony-per-square-
inch count at the end of the day, and where manual cleaning 
could never get rid of VRE in the environment, the robot was 
able to basically because it doesn't miss surfaces. It is 
always hitting it with its high-intensity UV light, and as a 
result of having a less bacterial count in the room, then the 
patient isn't subject to getting infection even if perhaps 
somebody forgets to wash their hands, maybe they won't infect 
the patient anyway. So getting that bacterial load way down, 20 
times lower, is part of the key of the success of the device.
    Chairman Smith of Texas. And Mr. Miller, also, what 
impediments have you encountered in trying to persuade others 
to use your technology and have a wider spread use of your 
technology?
    Mr. Miller. Overwhelmingly, the primary objection is, they 
say well, we just don't have enough budget to do that, we 
understand the benefit to the patients but we just can't afford 
it.
    Chairman Smith of Texas. You said it paid for itself, I 
believe, in four months. How did you calculate that?
    Mr. Miller. That is what the hospitals report back to us, 
so our very--one of our very first hospitals said they got a 50 
to 1 payback on the investment. They saved almost 1,100 patient 
days just after starting to use it in their ICUs.
    Chairman Smith of Texas. What is the typical cost of this 
device?
    Mr. Miller. It costs about $104,000 for the device and then 
it can treat somewhere between 30 and we have hospitals 
treating as many as 65 patient rooms per day, so on a per-room 
basis, it ends up being somewhere between $2 and $3.50 on the 
discharge of that patient.
    Chairman Smith of Texas. That is amazing, and I appreciate 
your putting that in the record.
    My next question is, what kind of obstacles have you 
encountered in developing even new processes or new technology?
    Mr. Miller. We are working as fast as we can. Dr. Stibich 
spends the Majority of his time thinking about what is the next 
iteration.
    Chairman Smith of Texas. Have there been any regulatory 
problems that you have encountered?
    Mr. Miller. Not so far.
    Chairman Smith of Texas. Okay. I am glad to hear that. I 
thought maybe you had. Okay.
    The other question I have is, are there any other similar 
products like yours available on the market?
    Mr. Miller. As Dr. Perl referred to, there is hydrogen 
peroxide gas. It can absolutely work. It takes about three and 
a half to four hours including sealing the room, disinfecting 
it, but it does a good job. There is also the--there is devices 
that are built on mercury bulbs, and if you had two and a half 
hours, approximately two hours and fifteen minutes to disinfect 
a hospital room, those work as well. So basically it is a time 
difference, four hours, two hours and fifteen minutes, or about 
ten minutes.
    Chairman Smith of Texas. Okay. Thank you.
    And let me ask whatever panelist might be the best one to 
answer this question, and that is, is there any danger that 
bacteria will develop a resistance to these types of methods 
that are trying to create a bacteria-free environment? Mr. 
Miller, if you want to respond first, it looks like you are 
eager to.
    Mr. Miller. Yeah. We know of a--there is a recent study 
that showed that the bacteria do not develop a resistance to 
this kind of treatment.
    Chairman Smith of Texas. Let me just see if any of the 
doctors on the panel have a comment on that as well. Is there 
any danger that bacteria would develop a resistance to this 
type of technology?
    Dr. Jinadatha. We in central Texas evaluated the risk of 
developing resistance to mercury-based and xenon-based 
technologies, and in our preliminary report--and I want to 
disclose that it is not peer-reviewed yet. We did present this 
data at the APIC meeting that there was no development of 
resistance in our experiment.
    Chairman Smith of Texas. That sounds to me like more good 
news, not only for you all but, more importantly, for patients 
in the hospitals themselves.
    Thank you, Mr. Miller. Thank you all for your expert 
testimony today, and Mr. Chairman, I will yield back.
    Chairman Bucshon. Thank you, Mr. Smith. At this point I 
will ask unanimous consent to introduce the Wall Street Journal 
investigative articles about VA health care into the record, 
and note that in those articles, within the VA system itself, 
there does appear to be a wide variance on the incidence of 
hospital-acquired infections.
    [The information appears in Appendix II]
    Chairman Bucshon. At this point I will recognize Mr. 
Lipinski for five minutes.
    Mr. Lipinski. Thank you Mr. Chairman. I want to thank you 
and all the chairmen for holding this hearing. Although the 
issues we are talking about today are not unique to VA 
hospitals, we do owe it to our veterans to do all we can to 
take care of them for what they have given to us, for us, the 
sacrifices they have made. So I want to thank of our witnesses 
for coming to testify today.
    The first thing I wanted to ask is, I wanted to ask Dr. 
Perl, I just wanted to get your thoughts--I know you are not an 
expert on the specific technology but the Xenex's pulse xenon 
ultraviolet technology, do you believe this technology has been 
proven or do you believe more research is needed to test its 
potential benefits for reducing the rate for infections?
    Dr. Perl. So I would actually say that there is preliminary 
evidence suggesting that it does decrease the microbial 
contamination in the environment. There is limited evidence 
that is not as rigorous as we would like looking at the impacts 
in the clinical setting--does it actually decrease infections--
and that is really that translation that is needed.
    Mr. Lipinski. Okay. I just wanted to get clarification 
there.
    Something else I wanted to bring up. I know it has been 
discussed a little bit, and it was also in written testimony. 
Dr. Perl, I think many of us would like to think that there is 
a single solution for this problem; if only we adopted the 
right technology, health care-associated infections would be 
eliminated, and I am not talking just specifically on this 
issue but on all issues that we get here, that we discuss here 
in Committee. We are looking for that one breakthrough that is 
going to solve everything, and we know it is more complicated 
than that, especially an issue that I talk about very often 
here on this Committee is the aspect of human behavior. We 
could have the best technology in the world, if it not being 
used correctly or may be not used at all or we are just doing 
things that are bad, that human behavior can undermine the best 
technology that we have in place.
    So Dr. Perl, can you speak of the importance of low-tech 
applications or processes such as training, clear communication 
and proper hand hygiene that would help in efforts to eliminate 
infections? Before you go, I just want to say everyone on the 
Committee knows I am always talking about the importance of 
having research in behavioral sciences, and behavior--we need 
to understand people's behavior or else the best technology is 
not going to do us any good. So what can you add on that?
    Dr. Perl. I think you have actually really stated the big 
challenge. Human factors, which is really this behavior is a 
huge challenge for us in health care. We are asking people to 
do multiple tasks with critically ill patients commonly, and 
including a lot of different things simultaneously, and so what 
you are always challenged with is making sure that people are 
doing everything that they need to do and that you facilitate 
those kinds of behaviors. So we could have all of the 
technology in the world but if people don't know how to use it 
or how to integrate it into their work flow or they don't have 
time to integrate it, then we are back to square one. So this 
whole issue of not only bringing in the technology but actually 
figuring out how to operationalize it once we know what works 
is going to be critical, and having done clinical trials in 
this arena, I can just tell you, it is much more difficult than 
it looks at face value. So it is a huge challenge as well as 
issue to think through.
    Mr. Lipinski. Would you like to add something, Mr. Miller?
    Mr. Miller. Just two things. We agree with that. As part of 
a bundle, we never just deliver a robot. There is always robust 
training that goes to the people. That is number one. And then 
number two, three of the studies out of the six that I have 
shown you are actually outcome studies showing the reduction 
peer-reviewed in the published journal so not just showing 
reductions in pathogens in the environment.
    Mr. Lipinski. Thank you. I will yield back.
    Mr. Johnson. [Presiding] I thank the gentleman for yielding 
back. The Chairman has stepped out for a minute, and I have 
taken his place, so I will yield myself five minutes, 
Representative Bill Johnson from Ohio, and first of all, Dr. 
Jinadatha, thank you for being here today, and the entire 
panel. I recognize that you specifically did not have--you are 
not the reason why we didn't get written testimony. It was the 
bureaucracy, and quite honestly, I must state for the record 
that that is exactly what is causing so many Members here and 
so many Americans across the country concern is the bureaucracy 
in the VA that is not looking out for the best interest of our 
veterans, and I am not speaking about you specifically. But 
clearly, we have some major issues, and this attitude of, we 
will get to you when we get to you, and a lack of sense of 
urgency in addressing the concerns of the voice of the American 
people, which is the United States Congress, that is very, very 
concerning to me, but I do want to thank you for being here 
today.
    And with that, let me ask just a few basic questions. What 
suggestions do you--and this is for the entire panel and we 
will just go left to right if that is okay. What suggestions do 
you have to prevent the outbreaks and the spread of diseases, 
for example, such as Legionnaire's?
    Dr. Jinadatha. My belief is, it is about people, process 
and products, and I think if we master all the three, we 
probably could prevent a lot of our infections including 
Legionella.
    Mr. Johnson. Okay. Dr. Cox?
    Dr. Cox. I think you have to go both from an environmental 
approach, particularly for things like Legionella. I think you 
have to take what Dr. Perl said and get rapid diagnostics so 
that you can intervene earlier because outcomes will be better, 
and then I think you have to keep looking at the individual 
patient level, what can you do there as well.
    Mr. Johnson. Okay. Thank you. Dr. Perl?
    Dr. Perl. You have asked actually a very loaded question, 
and it really requires a comprehensive approach, and I think we 
have identified the people issues. There are technologic 
solutions but there is also implementation that is critical in 
all of this, and it has got to be multidisciplinary and really 
involve everyone from frontline staff to leadership to really 
be effective.
    Mr. Johnson. Thank you. Mr. Smith?
    Mr. Smith. Yeah, my belief is really, is it kind of two 
things. It is mindset, getting people to understand that HAIs 
are not inevitable, they are preventable. That is the big thing 
initially. The second thing, as Dr. Perl said, implementation 
or practice, and it is a collaborative effort. There is no one 
specific solution. It is going to take a collaborative effort 
of multiple technologies to be able to make the impact that we 
all want.
    Mr. Johnson. Okay. Mr. Miller?
    Mr. Miller. And what we have seen is when the hospital 
administration makes a concrete commitment to patient safety, 
it is amazing what you can see.
    Mr. Johnson. It kind of starts at the top, doesn't it?
    Mr. Miller. Absolutely.
    Mr. Johnson. And we see that in many instances. That seems 
to be the key.
    Dr. Jinadatha, do you know if the VA has specifically 
implemented any procedures to prevent Legionnaire's outbreaks 
like the one that happened in Pittsburgh? Has Legionnaire's 
been addressed specifically within the VA?
    Dr. Jinadatha. I will start with my facility. We have a 
water safety Committee, and the chair is led by the top leaders 
from the front office, and we take every precaution to do 
whatever we can within our powers to make sure our veterans are 
safe from the Legionnaire's perspective at our facility.
    As to the VA, I am not sure. I probably can get back to 
you. But I know it is a concentrated effort that is going on to 
do whatever we can to take care of that.
    Mr. Johnson. Shifting gears just a little bit, kind of a 
different subject. You know, we have read stories about 
millions of dollars in performance bonuses paid to VA hospital 
managers even as patient wait times for appointments and other 
problems including HAIs festered. Should the VA explicitly and 
primarily base performance pay to health care managers on 
objective measures of care that our veterans receive? I would 
just like your opinions, and we will go left to right again. 
Dr. Jinadatha, do you have an opinion?
    Dr. Jinadatha. No, sir.
    Mr. Johnson. You don't have an opinion, or your answer is 
``no''?
    Dr. Jinadatha. I don't have an opinion.
    Mr. Johnson. Okay. Dr. Cox?
    Dr. Cox. I think with all the benchmarking data that we 
have now and accountability, I think that performance measures 
can be instituted in a lot of varieties including for bonuses.
    Mr. Johnson. Okay. Dr. Perl?
    Dr. Perl. I think there is a risk, and you have to really 
actually decide what you are looking for. The risk is that if 
it is a performance-related measure, that there is strategy to 
game the system, and so perhaps if you include those, you also 
want to have process measures that are a little bit harder to 
game, so I think that is the risk, and there are people who are 
much smarter than I that are thinking about those things.
    Mr. Johnson. Got you. Mr. Smith?
    Mr. Smith. As a small-business owner, my life revolves 
around risk-reward and accountability, and so while I can't 
specifically comment to your question, in any situation, reward 
and accountability, I think, is a good thing.
    Mr. Johnson. Mr. Miller?
    Mr. Miller. And I am cognizant of what Chairman Bucshon 
said earlier about unintended consequences. On the other hand, 
in all the companies that I have grown, we have 6,000 
employees, there is nothing like incentives that are properly 
put in place to get them focused on what the administration of 
that entity wants to see happen, and then you measure it and 
then you re-measure it and then you adjust the incentives 
constantly.
    Mr. Johnson. Well, thank you all, and as a 26-1/2-year 
veteran, I can tell you that I am concerned about the care that 
our veterans get. I appreciate the edification on this 
particularly interesting and critical subject that you brought 
to us today, and I agree, there is no such thing as a former 
Marine. Semper fi. I am Air Force, but thank you for your 
service. I yield back to the Chairman.
    Chairman Bucshon. I yield now to Ms. Esty for five minutes.
    Ms. Esty. Thank you, and I want to thank the Chairman again 
for holding this important hearing today, and I want to thank 
all our witnesses. We certainly all have a shared commitment to 
serving those who have served us, and some of the issues we 
have seen are a microcosm of what we see more broadly in 
hospitals. As one whose father sat in a prominent university 
hospital in 2005 where he had a staph infection induced in the 
hospital that greatly accelerated his demise, this is of 
particular concern to me and something I am aware of the 
consequences that happens.
    A couple of things just at the outset. I think we have 
heard over and over again, and as I serve on the Transportation 
and Infrastructure Committee as well and on the Rail 
Subcommittee and I live in Connecticut, the importance is a 
safety culture because this has to do with human element of any 
of these technologies, any of these procedures are ultimately 
going to depend on human beings to implement them and so we are 
going to need to create a safety culture at each and every 
institution and we also need to frankly make it easy for people 
to do the right thing, and that is to be able to use the 
technology well for everybody involved in the situation to be 
able to do the right thing most easily and not force them to 
adapt to what we think they ought to do but actually recognize 
the reality of human behavior. So that being said, I think the 
best technology in the world, as we would all agree, is not 
going to do any good if people won't use it properly.
    So to that end, I wanted to turn to you, Dr. Perl, to talk 
about how we do currently test technologies because in order to 
have appropriate testing, you want to reduce the number of 
variables but at the end of the day, we also have to look at 
human behaviors. Could you talk a little bit about that?
    Dr. Perl. So I probably recognize one end of that spectrum, 
but in general, there are different kinds of technologies and 
what happens for drugs, for example, may be different than what 
happens for devices and could be different than some of the 
disinfectants that are being talked about and actually the 
current technology that has been discussed today as far as I 
understand is somewhat unregulated and there are no standards. 
So in general, there is a process that is usually run at the 
government level where the device or the drug is regulated. 
What happens in the FDA is a little different than what will 
happen in, say, the EPA for disinfectants. Once that goes 
through that process, then products are generally brought into 
the marketplace and commonly people will approach you and say I 
have this new device, I would like you to look at it, or I have 
this new product I would like you to look at it, and then how 
you approach it will be very different. What I do may be 
different a little bit than what Dr. Cox does, and we try and 
look at the technology not only from a safety point of view but 
from an infectious risk point of view, from an engineering 
point of view, and if we think it is interesting, you can 
either pilot it or commonly you may say look, there are some 
risks and benefits and we would actually like you to go ahead--
we would like to do a study, and then you try and determine 
sources of funding to go ahead and do these kinds of studies. 
Sometimes these are done under the rubric with IRBs, or 
institutional review boards, and sometimes they are actually 
done as quality projects. So that is in general the process.
    It has been relatively difficult for us to get funding to 
test this kind of technology in a much more what I would call 
rigorous scientific way.
    Ms. Esty. And I can follow up on exactly that point, who 
currently is funding the research on these technologies, and if 
you have thoughts about who ought to be, whether we need a 
dedicated federal funding stream to deal with technologies. 
Obviously we do in the drug category. We have separate ones for 
medical devices. Is this something, given the importance of 
HAIs, that we ought to be looking at a funding stream dedicated 
to that in and of itself?
    Dr. Perl. So I think that funding for HAIs has actually 
been--it has been greatly underfunded, given its importance, 
and we really do not have a good home. The NIH will say this is 
really not our area. They might fund resistance at a very basic 
science level. The CDC really does not have that much research 
funding, and what they have is minimal. Traditionally, we 
haven't gone a lot to the EPA, et cetera, and AHRQ has not been 
necessarily quite as interested in technologies but more 
implementation science. So there is not a good home, and I 
think that--I am not sure that another infrastructure needs to 
be created but certainly there needs to be an infusion into 
this arena to assure that we are studying things appropriately.
    Ms. Esty. And if I may, could I ask all five you if I can 
follow up afterwards, if you have thoughts about just deciding 
a home. I agree with you, it makes no sense to create a new 
agency. That would be foolish. But someone needs to take 
ownership of this issue clearly. It makes no sense to have no 
dedicated stream, given the expense, the mortality, the human 
expense, as well as the cost to our system. Someone needs to 
wrap their arms around this, take ownership, start developing 
metrics and have a funding stream that it gets the respect and 
resources it deserves.
    Thank you all very much.
    Chairman Bucshon. I would agree with that.
    I now recognize Mr. Collins for five minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Dr. Jinadatha, as Chief of Infectious Diseases, do you run 
your own blood testing lab and so forth in your hospital?
    Dr. Jinadatha. We have our own pathology, microbiology and 
hematology lab, and of course, I have my own research lab.
    Mr. Collins. So using PCR and molecular diagnostic 
equipment? If a patient comes in, you will do your own blood 
tests?
    Dr. Jinadatha. Yes, we have.
    Mr. Collins. Now, one thing I have been concerned about 
is--and I know you are not in Buffalo, but in Buffalo, our VA 
hospital was--it was discovered by the IG a year and a half 
ago. They were reusing insulin pens. A very basic, you can't 
make this stuff up, reusing insulin pens. We had to test many 
thousands of patients to see if they had contracted HIV or 
hepatitis through the refuse of these insulin pens. We just 
discovered through a whistleblower that they were not properly 
sterilizing their instrumentation, I mean, not just by a little 
bit, and so the whistleblower contacted the Office of Special 
Counsel and now it just came out two days ago about 
instrumentation within the hospital not being sterilized, 
almost, again, something you can't imagine.
    So what I really discovered is, coming out of the private 
sector, best practices are the heart and soul of quality, but 
in many cases, that means benchmarking. We have three great 
hospital systems in western New York: the Kaleida Health 
System, Catholic Health System and Erie County Medical Center. 
The VA was not benchmarking with any of them, and I can only 
use the word ``arrogance.'' The arrogance of the VA system was, 
we are the best, we are the biggest. Well, they are anything 
but, and if you don't benchmark, how do you know what others 
are doing? Because, you know, not to say for sure but I can 
assure you, the other systems weren't reusing insulin pens on 
several patients. They were sterilizing their instrumentation.
    So a real quick question. Do you do and do you have someone 
that does proficiency programs testing out your technicians on 
your molecular diagnostic equipment?
    Dr. Jinadatha. We have a certification process, the CAP, 
which is the----
    Mr. Collins. College of American Pathology?
    Dr. Jinadatha. Yes.
    Mr. Collins. So CAP is running your program?
    Dr. Jinadatha. They come and inspect us, so does, I 
believe, IG and----
    Mr. Collins. So with CAP, they are sending you the samples 
two or three times a year, influenza, whatever, and then they 
are scoring you?
    Dr. Jinadatha. Yes. I believe we undergo CAP certification.
    Mr. Collins. How is your score?
    Dr. Jinadatha. Since that is not something I run, I don't 
know but----
    Mr. Collins. Well, I am glad because that is an outside 
agency. CAP does a very good job.
    Dr. Jinadatha. They kept us working, so I believe we are 
good on their benchmarks.
    Mr. Collins. So does your system benchmark? I mean, are you 
making sure you have got best practices?
    Dr. Jinadatha. We have a national infectious disease office 
that is located in Cincinnati, and we get directives, we get 
handed down best practices that we should be implementing, some 
of the examples that have been alluded by the panelists are 
MRSA bundle, the MDRO program. We have a CLABSI reduction 
program and an antimicrobial stewardship program.
    Mr. Collins. But is that coming down from on high to you or 
is your hospital reaching out to the others even in your area 
just to share information?
    Dr. Jinadatha. Absolutely, sir. One of that would have been 
an example of how we instituted UV disinfection technology at 
our facility. So in our facility, which I can speak for, we do 
both. We take some of the best practices that are given to us 
from the national office. We also initiate on our own some best 
practices that I follow the literature and bring it into--try 
to bring it into practice.
    Mr. Collins. Again, in Buffalo, I just don't--I wonder if 
any other panelist has a comment, not as a physician, but how 
could you reuse insulin pens? How could they be doing that? Or 
in the case of instrumentation, not sterilizing it. And it was 
really--the technicians didn't seem to care. They were going 
through the motions. I mean, does anyone else--it is almost 
rhetorical. Mr. Smith?
    Mr. Smith. Just a quick comment. You know, one of the 
questions before was practice, implementation, training people 
and so forth, and again, it is going to take a collaborative 
effort to have the favorable impact that we all want.
    With our technology, it is not--it does not require 
training people. It is just simple implementation, whether it 
is in the touch surfaces outside the body or potentially inside 
the body. So this is a continuous type of technology that does 
not require training. And so thankfully, you take the human 
element out of that, the decision making--the poor decision 
making out of that aspect.
    Mr. Collins. Thank you. I just would conclude by saying it 
is obvious our veterans deserve the best care. It has been very 
disappointing in the Buffalo area with a very large hospital, 
we have not delivered the best care, and I go back to--you 
know, I have sensed a level of arrogance within the VA that 
they just know best, and then when you show them they don't, 
they still say they know best.
    So anyway, thank you, Mr. Chairman.
    Chairman Bucshon. Thank you. We need to bring this more to 
the public's attention. It does get out there some into the 
mass media. When we discuss funding for a lot of medical 
research, obviously there is a disparity between different 
disease processes within the funding stream, many of which is 
related to, in my view, for political reasons and for the fact 
that some things are on the front page and some things are not. 
This is one area that we have heard today that the dramatic 
impact on the people that we take care of in health care and 
how it most likely is very clear that we need more research and 
more public awareness of this problem because the impact, I 
think, can be dramatic.
    So I would like to at this point thank all the witnesses 
for their valuable testimony and the Members for their 
questions. The Members of the Committee may have additional 
questions for you, and we will ask you to respond in writing. 
The record will remain open for two weeks for additional 
comments and written questions from the Members.
    At this point the witnesses are excused and this hearing is 
adjourned. Thank you.
    [Whereupon, at 10:49 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
